WAIVER
SUPREME COURT OF THE UNITED STATES
No.

20-1208
Pacific Community Mortgage In. et. al:

Salma Agha-Khan, M.D.

(Respondent)

V.

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please cheek the appropriate box:
I am filing this waiver on behalf of all respondents,

0

I only represent some respondents. I am, filing this waiver on behalf of the following respondent(s):
Servicelink, Servicelink-Irvine, Fidelity National Title

Please cheek the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be Med by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 First, Street, NE, Washington, D.C. 20543).

14401

Signature:
Date:

/2Z/

202/

(Type or print) Name Natalie C. Lehman

0

Mr.

0

Ms.

Mrs.

Firm

Fidelity National Law Group

Address

8363 W Sunset Road, Suite 120

City & State

Las Vegas, Nevada

Phone

1702-667-3000

0

Zip 89113
Email Natalie.Lehman@fnf.com

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please' indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service. or cover letter is required.

cc:

Selma Agha-Khan
3751 Motor Ave
Unit 3427
Los Angeles, California 90034

